                                       Federal Register / Vol. 66, No. 112 / Monday, June 11, 2001 / Notices                                                     31245

CFR 401.33; Form No.: HCFA–R–214                                     DEPARTMENT OF HEALTH AND                                  Proposed Project: Study To Evaluate a
(OMB# 0938–0721); Use: The                                           HUMAN SERVICES                                            Healthy Start Campaign To Increase
information collection requirements                                                                                            Awareness of the Importance of
associated with an Independent                                       Health Resources and Services                             Prenatal Care—(NEW)
Diagnostic Testing Facilities involve                                Administration                                               The Health Resources and Services
documentation of proficiency of                                                                                                Administration (HRSA) proposes to
medical personnel and of resources;                                  Agency Information Collection
                                                                                                                               conduct a study to evaluate the impact
Frequency: Annually; Affected Public:                                Activities: Proposed Collection:                          of a Healthy Start public awareness
Business or other for-profit, Federal                                Comment Request                                           campaign designed by The Advertising
Government and State, local and tribal                                                                                         Council, Inc., that is using public
                                                                        In compliance with the requirement
government; Number of Respondents:                                                                                             service announcements (PSAs) to
                                                                     for opportunity for public comment on                     increase awareness of the importance of
500; Total Annual Responses: 500; Total
                                                                     proposed data collection projects                         prenatal care. The study will employ a
Annual Hours: 42.
                                                                     (section 3506(c)(2)(A) of Title 44, United                survey methodology developed by the
  To obtain copies of the supporting                                 States Code, as amended by the
statement and any related forms for the                                                                                        Advertising Council to monitor changes
                                                                     Paperwork Reduction Act of 1995,                          in awareness of, and attitudes toward,
proposed paperwork collections                                       Public Law 104–13), the Health                            prenatal care over the course of one
referenced above, access HCFA’s Web                                  Resources and Services Administration                     year, and relate those changes to
Site address at http://www.hcfa.gov/                                 (HRSA) publishes periodic summaries                       advertising exposure on the issue of
regs/prdact95.htm, or E-mail your                                    of proposed projects being developed                      interest and other activities in the
request, including your address, phone                               for submission to OMB under the                           marketplace. The study will utilize a
number, OMB number, and HCFA                                         Paperwork Reduction Act of 1995. To                       standardized questionnaire previously
document identifier, to                                              request more information on the                           developed by the Advertising Council
Paperwork@hcfa.gov, or call the Reports                              proposed project or to obtain a copy of                   for this project, and will be
Clearance Office on (410) 786–1326.                                  the data collection plans and draft                       implemented as part of a larger multi­
Written comments and                                                 instruments, call the HRSA Reports                        agency study covering multiple
recommendations for the proposed                                     Clearance Officer on (301) 443–1129.                      Advertising Council campaigns on a
information collections must be mailed                                                                                         variety of themes. Information from this
                                                                        Comments are invited on: (a) Whether
within 30 days of this notice directly to                                                                                      study will be used to evaluate the
                                                                     the proposed collection of information
the OMB desk officer: OMB Human                                                                                                effectiveness of using PSAs to reduce
                                                                     is necessary for the proper performance                   infant mortality by getting more
Resources and Housing Branch,
                                                                     of the functions of the agency, including                 pregnant women into prenatal care.
Attention: Allison Eydt, New Executive
                                                                     whether the information shall have                        HRSA’s Maternal and Child Health
Office Building, Room 10235,
                                                                     practical utility; (b) the accuracy of the                Bureau (MCHB) is administering this
Washington, DC 20503.
                                                                     agency’s estimate of the burden of the                    project. HRSA has included national
  Dated: May 22, 2001.                                               proposed collection of information; (c)                   performance measures for infant
John P. Burke III,                                                   ways to enhance the quality, utility, and                 mortality reduction for this project, in
HCFA Reports Clearance Officer, Security and                         clarity of the information to be                          accordance with the requirements of the
Standards Group, Division of HCFA                                    collected; and (d) ways to minimize the                   ‘‘Government Performance and Results
Enterprise Standards.                                                burden of the collection of information                   Act (GPRA) of 1993’’ (Public Law 103–
[FR Doc. 01–14542 Filed 6–8–01; 8:45 am]                             on respondents, including through the                     62). This act requires the establishment
BILLING CODE 4120–03–P                                               use of automated collection techniques                    of measurable goals for Federal
                                                                     or other forms of information                             programs that can be reported as part of
                                                                     technology.                                               the budgetary process, thus linking
                                                                                                                               funding decisions with performance.
                                                                                                                                  The estimated response burden is as
                                                                                                                               follows:

                                                                                                                               Responses
                                                                                                              Number of re­                  Burden hours   Total burden
                                            Type of form                                                                      per respond­
                                                                                                               spondents                     per response      hours
                                                                                                                                   ent

Tracking questionnaire ....................................................................................      4,650             1             .25           1,163



  Send comments to Susan G. Queen,                                   DEPARTMENT OF HEALTH AND                                  Healthcare Integrity and Protection Data
Ph.D., HRSA Reports Clearance Officer,                               HUMAN SERVICES                                            Bank (HIPDB) published in the Federal
Room 14–33, Parklawn Building, 5600                                                                                            Register on October 26, 1999 (64 FR
Fishers Lane, Rockville, MD 20857.                                   Office of Inspector General                               57740), the Department is authorized to
Written comments should be received                                                                                            assess a fee on all requests for
                                                                     Healthcare Integrity and Protection                       information, except requests from
within 60 days of this notice.
                                                                     Data Bank: Change in User Fees
  Dated: June 4, 2001.
                                                                                                                               Federal agencies. In accordance with
                                                                     AGENCY: Office of Inspector General                       § 61.13 of the HIPDB regulations, the
Jane M. Harrison,
                                                                     (OIG), HHS.                                               Department is announcing a one dollar
Director, Division of Policy Review and                                                                                        increase—from $4 to $5—in the fee
Coordination.                                                        ACTION: Notice.
                                                                                                                               charged for queries submitted by
[FR Doc. 01–14590 Filed 6–8–01; 8:45 am]                             SUMMARY: In accordance with final                         authorized entities to query the data
BILLING CODE 4160–15–P                                               regulations implementing the                              bank.
31246                                     Federal Register / Vol. 66, No. 112 / Monday, June 11, 2001 / Notices

EFFECTIVE DATE: This increase will be                                        • Physical overhead, consulting, and                            When an authorized entity query is
effective on October 1, 2001.                                              other indirect costs including rent and                        submitted for information on one or
SUPPLEMENTARY INFORMATION:                                                 depreciation on land, buildings and                            more health care practitioners,
                                                                           equipment;                                                     providers or suppliers, the appropriate
User Fee Amount                                                              • Agency management and                                      total fee will be $5 multiplied by the
   Section 1128E(d)(2) of the Social                                       supervisory costs;                                             number of individuals or organizations
Security Act (the Act), as added by                                          • Costs of enforcement, research and                         about whom information is being
section 221(a) of the Health Insurance                                     establishment of regulations and                               requested.
Portability and Accountability Act                                         guidance;                                                         In order to minimize administrative
(HIPAA) of 1996, specifically authorizes                                     • Use of electronic data processing                          costs, the Department will accept
the establishment of fees for the costs of                                 equipment to collect and maintain                              queries submitted by authorized entities
processing requests for disclosure and                                     information, i.e., the actual cost of the                      by credit card or electronic funds
for providing such information, and the                                    service, including computer search                             transfer. The Department will continue
final regulations at 45 CFR part 61 set                                    time, runs and printouts; and                                  to accept payment for self-queries only
forth the criteria and procedures for                                        • Any other direct or indirect costs                         by credit card. The HIPDB accepts Visa,
information to be reported to and                                          related to the provision of services.                          MasterCard, and Discover. To submit
disclosed by the HIPDB. The Act                                              The current fee structure of $4 for                          queries, registered entities (including
requires that the Department recover the                                   each separate query submitted by                               law enforcement agencies) must use the
full costs of operating the HIPDB                                          authorized entities was announced in a                         HIPDB web site at www.npdb­
through user fees. In determining any                                      Federal Register notice on March 3,                            hipdb.com.
changes in the amount of the user fee,                                     2000 (65 FR 11589). Based on the above
                                                                                                                                             The Department will continue to
the Department is employing the criteria                                   criteria and our analysis of the
                                                                                                                                          review the user fee periodically, and
set forth in § 61.13(b) of the HIPDB                                       comparative costs of the various
                                                                                                                                          will revise it as necessary. Any future
regulations.                                                               methods for filing and paying for
                                                                                                                                          changes in the fee and its effective date
   Specifically, § 61.13(b) states that the                                queries, the Department is now
                                                                                                                                          will be announced through notice in the
amount of each fee will be determined                                      increasing the fee for each query
                                                                                                                                          Federal Register.
based on the following criteria:                                           submitted by authorized entities by one
   • Direct and indirect personnel costs;                                  dollar—from $4 to $5.1                                         Examples

                                                                                                                             Fee per
                                                                                                                             name in
                                                 Query method                                                               query, by                        Examples
                                                                                                                            method of
                                                                                                                            payment

Authorized Entity query .........................................................................................                $5.00   10 names in query: 10 × $5 = $50.00.
Self-query ..............................................................................................................       $10.00   10 self-queries 10 × 10 = $100.



  Dated: May 31, 2001.                                                     manufacturing, marketing or providing                          pharmaceutical industry to reduce the
Michael F. Mangano,                                                        goods or services to Medicare, Medicaid                        potential for fraud and abuse.
Acting Inspector General.
                                                 and other Federal health care program                          DATES: To assure consideration,
[FR Doc. 01–14599 Filed 6–8–01; 8:45 am]
                                  beneficiaries. The pharmaceutical                              comments must be delivered to the
BILLING CODE 4152–01–U                                                     industry has experienced a number of                           address provided below by no later than
                                                                           instances of fraud and abuse and has                           5 p.m. on August 10, 2001.
                                                                           expressed interest in increasing the                           ADDRESSES: Please mail or deliver your
DEPARTMENT OF HEALTH AND                                                   awareness of the industry to assist in                         written comments, recommendations
HUMAN SERVICES                                                             protecting against such conduct. In                            and suggestions to the following
                                                                           response to the industry’s concerns, the                       address:Department of Health and
Office of Inspector General                                                OIG has written Advisory Opinions on                           Human Services,Office of Inspector
                                                                           a variety of industry-related issues and,                      General,Attention: OIG–8–CPG,Room
Solicitation of Information and
                                                                           in 1994, published a Special Fraud Alert                       5527 A, Cohen Building,330
Recommendations for Developing a
                                                                           relating to Prescription Drug Marketing                        Independence Avenue,
Compliance Program Guidance for the
                                                                           Schemes.1 Also, in the early 1990s, the                        SW.,Washington, DC 20201.
Pharmaceutical Industry                                                                                                                     We do not accept comments by
                                                                           OIG’s Office of Evaluation and
AGENCY: Office of Inspector General                                        Inspections issued reports relating to                         facsimile (FAX) transmission. In
(OIG), HHS.                                                                                                                               commenting, please refer to the file code
                                                                           prescription drug promotional
ACTION: Notice.                                                                                                                           OIG–8–CPG. Timely-filed comments
                                                                           practices.2
                                                                                                                                          will be available for public inspection as
SUMMARY:   This Federal Register notice                                      In an effort to provide further                              they are received, generally beginning
seeks the input and recommendations of                                     guidance, the OIG is soliciting                                approximately 3 weeks after receipt of a
interested parties as the OIG develops a                                   comments, recommendations and other                            document, in Room 5541 of the Office
compliance program guidance for the                                        suggestions from concerned parties and                         of Inspector General at 330
pharmaceutical industry, especially                                        organizations on how best to develop a                         Independence Avenue, S.W.,
those segments of the industry related to                                  compliance program guidance for the                            Washington, D.C. 20201 on Monday
  1 As part of its obligations under the Privacy Act,                        1 The Advisory Opinions and the Special Fraud                   2 The reports issued by the Office of Evaluation

the Department previously announced a $10 fee for                          Alert can be found on the OIG web site at http://              and Inspections also can be found on the OIG web
health care practitioners, providers or suppliers to                       www.hhs.gov/oig.                                               site.
self-query (64 FR 58851; November 1, 1999).
